r

CERTIFICATE OF COMPLIANCE
No: 14-830
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR AN EXTRAORDINARY WRIT
ATUL C. SHAH

PETITIONER:

Vs.

MOTORS LIQUIDATION COMPANY GUC TRUST AND
MODERN EDUCATIONAL SYSTEM

RESPONDENTS:

ON PETITION FOR AN EXTRAORDINARY WRIT TO THE
SUPREME COURT OF THE UNITED STATES

As required by Supreme Court Rule 33.1(h), I certify that the Petition for an
Extraordinary Writ contains 8902 words out of allowed 9000 words count, excluding
the parts of the petition that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 2, 2020

Atul C. Shah, MD
* n;

Pro Se Petitioner''
*

AUSTIN K0SMATIN
Notary Public, State of Michigan
County of Macomb

j

A

